                                                                                          I1

                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                               OFFICE OF INVESTIGATIONS
                                                                                           1

                                        CLOSEOUT MEMORANDUM

Zase Number:             I04110043                                       11          Page 11of 1



               We received allegations that an NSF manager1 participated in (1) the handling of
        proposals in which he had a conflict of interests (COI), and (2) after he left NSF, the
        submission of a proposal to a program for which he had responsibility while at NSF. We
        reviewed the relevant proposal and award jackets, and interviewed four program offickrs and
        the Designated Agency Ethics Official, and determined that the manager had complied with
        applicable COI rules. Accordingly, this case is closed.                                I




                                                                                                   I

ISF OIG Fornl2 (11/02)                                                                             I
